                                                            NATIONAL SCIENCE FOUNDATION
                                                             OFFICE OF INSPECTOR GENERAL
                                                  8;           OFFICE OF INVESTIGATIONS




          This investigation was initiated after receiving an anonymous allegation claiming that a
          misused funds from an NSF rant.^ y e requested and received account summaries and
          supporting documentation for claimed cost from the grantee. The analysis of the financial
          documents was completed and various invoices and expenditures were independently verified.
          We and identified no problems and determined that the grantee provided reasonable support for
          the expenditures charged to the NSF g r h t . We also verified the expenditures matched the
          amounts reported by the grantee on thelFedera1 Cash Transaction Reports.

           Based on the fact that the financial review did not identify problems and did not substantiate the
           allegations, accordingly, this case is closed.




                                                       I




                                                       1



                                                       t




                                                       lj




NSF OIG Form 2 ( 1 1 /02)                              I
                                                       11
